                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
               Reporting Entity: Department of Transportation - OIG
             Month Ending Date: 02/28/2010

                                                          Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays     Direct or     Ordering TAFS
                                                                                                                                         Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)                         Y - US            $2,458,019            $2,202,802           Direct           N/A
      Transportation - OIG       Transportation - OIG -
 1                               Recovery Act
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau       FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010       Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations        Gross Outlays
No.
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                     $300,000         $300,000
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                          DOT OIG Monthly Report Num 12 02-28-10
                                                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 02/28/2010

                         FTE Working on Recovery
                                                                                                                                 Testimonies:
     Fiscal Year           2009                2010                 Cumulative
      Newly Hired FTE
                           0.77                 4.80                   5.57                                                    Provided (monthly):     0
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 17.60                 19.14                                                 Provided (cumulative):     3
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 2.51                  17.71
         (cumulative):

                                                                                                                     Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                   Investigations                                                            Training / Outreach
                                                                                                                                   Reviews
          Monthly Data                         Monthly Data                               Monthly Data                          Monthly Data                           Monthly Data
                                                                                                                                                                      Training Sessions
            Received:      6                            Received:      2              Opened (this month):      5            Initiated (this month):   0                                   12
                                                                                                                                                                             Provided:
                                                                                 Active (as of the end of the           In Process (as of the end of
                                                        Accepted:      2                                        20                                   10            Individuals Trained:    980
                                                                                                     month):                            the month):

                                                                                                                        Completed Final Published                    Hours of Training
                                                                                          Pending Decision:     12                                     1                                   980
                                                                                                                                 Work Products:                             Provided:

                                                                                                                         Priority Interim Published                 Outreach Sessions
                                                                                     Closed without Action:     1                                      0                                    1
                                                                                                                                    Work Products:                        Conducted:

                                                                                                                                Unpublished Work
                                                                                  Accepted for Prosecution:     1                                      0
                                                                                                                                       Products*:
                                                                                       Prosecution Denied:    0
                                                                                    Referred for Alternative
                                                                                                              0
                                                                                                 Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                        Completed Final Published                     Training Sessions
            Received:     207                           Received:      2             Closed without Action:     3                                      8                                   180
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published
                                                        Accepted:      2          Accepted for Prosecution:     19                                     0           Individuals Trained:   12,778
                                                                                                                                    Work Products:

                                                                                                                                Unpublished Work                     Hours of Training
                                                                                        Prosecution Denied:     1                                      0                                  12,678
                                                                                                                                        Products:                           Provided:
                                                                                    Referred for Alternative                                                        Outreach Sessions
                                                                                                                1               Cumulative Total:      8                                   141
                                                                                                 Resolution:                                                              Conducted:
                                                                                         Cumulative Total:      24


                                                                                                                                                       DOT OIG Monthly Report Num 12 02-28-10
                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 02/28/2010

       No.                        OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
         1
                     On February 19, the DOT OIG issued a letter to Senator Mark Pryor on DOT OIG's Recovery Act Oversight Activities.
         2           On February 23, the DOT OIG issued "Recovery Act Data Quality: Errors in Recipients' Reports Obscure Transparency."

       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)


                     By March 31, the DOT OIG plans to initiate audits/reviews of the following: FHWA's oversight of improper payments, Federal
         1           Railroad Administration's (FRA) state-freight railroad capital agreements, FRA and states ability to plan and manage high
                     speed rail projects, Federal Transit Administration's (FTA) oversight of major transit projects in the New York region, and
                     FTA's oversight of grantees' Recovery Act contract award and administration practices.

         2           Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability to
                     provide effective oversight to ARRA-funded projects and meet new requirements
         3           Continue to monitor for fraudulent schemes in the contracting process.




                                                                                                                DOT OIG Monthly Report Num 12 02-28-10
                                                                                 OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 02/28/2010
           Date:


                                                                                          TRAINING ACTIVITIES
                                                                                                                                                      Hours of
                                                                                             Training                     Length of                   Training                  Presentation     Average
                                                                                                              Date of                   Number of                   Cost of
     No.               Type of Training        Target Audience        Title of Training    Location (City,                 Training                  Provided                    with Other     Evaluation
                                                                                                              Training                 Participants                 Training
                                                                                               State)                      (hours)                    (length x                     OIGs          Rating
                                                                                                                                                    participants)
                 Fraud                                           Fraud Prevention/
       1                                       State                                      Taunton, MA        02/02/2010            1            60             60 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       2                                       Mixed                                      Chicago, IL        02/02/2010            1            45             45 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       3                                       Mixed                                      Chicago, IL        02/04/2010            1            50             50 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       4                                       State                                      Albany, NY         02/05/2010            1           290            290 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       5                                       Mixed                                      Myrtle Beach, SC   02/09/2010            1            65             65 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       6                                       State                                      Atlanta, GA        02/11/2010            1           100            100 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       7                                       State                                      Boston, MA         02/16/2010            1            60             60 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       8                                       Mixed                                      Carterville, IL    02/16/2010            1            70             70 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
       9                                       State                                      Arlington, MA      02/23/2010            1            75             75 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
      10                                       State                                      Arlington, MA      02/26/2010            1            75             75 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
      11                                       State                                      Kansas City, MO    02/23/2010            1            50             50 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                 Fraud                                           Fraud Prevention/
      12                                       State                                      Los Angles, CA     02/25/2010            1            40             40 N/A                          N/A
                 Prevention/Awareness                            Awareness Briefing
                                                                                                                           TOTAL               980            980


                                                OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                                Outreach
                    Organization to which                                                                     Date of
     No.                                       Represented at   Description of Outreach  Location (City,
                     Outreach Provided                                                                       Outreach
                                                 Outreach                                    State)
                                                  Session
       1         Ohio Dept of Transportation                 1 Overview of ARRA efforts Ohio                 02/09/2010




                                                                                                                                                                        DOT OIG Monthly Report Num 12 02-28-10
